No. 20-1214

In the Supreme Court of the United States
Fred J. Eychaner,
Petitioner,
v.
City of Chicago,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Amicus Curiae Brief
of the Liberty Justice Center In Support of Petitioner contains 2,976 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 13, 2021
/s/ Jeffrey M. Schwab
Jeffrey M. Schwab
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
jschwab@libertyjusticecenter.org

